PROOF OF SERVICE
I James Bonham, declare on this date as required by
Supreme Court Rule 29 I have served the enclosed
PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel,
and on every other person required to he served, by
depositing

an

envelope

containing

the

above

documents in the United States mail properly
addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar
days. The names and addresses of those served are
as follows:
WILLIAMS, ZINMAN & PARHAM P.C.
SCOTT E. WILLIAMS #012417
MARK B. ZINMAN #024028
CLERKOFCOURT@WZPLEGAL.COM
7701 E. Indian School Rd. Suite J
Scottsdale, Arizona 85251
Attorneys for Plaintiff
I declare under penalty of perjury that the foregoing
is true and correct.

August 18, 2020
-------

dames W. Bonham

34

